No. ______
In the Supreme Court of the United States
__________________
THE IDAHO DEPARTMENT OF CORRECTION; HENRY
ATENCIO, in his official capacity as Director of the
IDOC; JEFF ZMUDA, in his official capacity as Deputy
Director of the IDOC; AL RAMIREZ, in his official
capacity as Warden of the Idaho State Correctional
Institution; and SCOTT ELIASON, M.D.,
Petitioners,
v.
ADREE EDMO, aka Mason Edmo,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Petitioner
Scott Eliason, M.D.

May 6, 2020

LAWRENCE G. WASDEN
Attorney General State of Idaho
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net
Counsel for Petitioners
the Idaho Department of Correction
and Henry Atencio, Jeff Zmuda,
and Al Ramirez, in their official
capacities

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The Ninth Circuit became the first circuit in the
nation to conclude that the Eighth Amendment
mandates the provision of sex reassignment surgery
when it held that prison psychiatrist Dr. Scott Eliason
inflicted cruel and unusual punishment on transgender
inmate Adree Edmo by recommending in good faith
that Edmo’s gender dysphoria be treated conservatively
with hormone therapy and counseling, and not sex
reassignment surgery. The panel reached this result by
adopting an advocacy group’s treatment guidelines as
constitutional requirements. The panel then held that
Dr. Eliason was deliberately indifferent because he
deviated from those guidelines; it failed to properly
consider the subjective reasoning underlying his
decision. The district court has ordered Idaho to
provide Edmo’s surgery, which, if it occurs, will be the
second such surgery ever performed on an inmate in
this country. Ten circuit judges disagreed with the
panel’s decision and would have granted the petition
for rehearing en banc. The questions presented are as
follows:
1. Whether the Ninth Circuit erred in concluding
that the guidelines set by an advocacy organization
constitute the constitutional minima for inmate
medical care under the Eighth Amendment, when the
First, Fifth, Tenth, and Eleventh Circuits have all
concluded that they do not.
2. Whether the Ninth Circuit’s holding that a
prison health care provider’s individualized medical
decision was unreasonable and therefore constituted
deliberate indifference, regardless of his subjective

ii
reasoning, conflicts with Estelle v. Gamble, 429 U.S. 97
(1976) (holding that mere negligence does not establish
deliberate indifference), and Farmer v. Brennan, 511
U.S. 825 (1994) (holding the provider must have known
of and disregarded a substantial risk of serious harm to
find deliberate indifference).

iii
PARTIES TO THE PROCEEDING BELOW
The Idaho Department of Correction (“IDOC”);
Henry Atencio, in his official capacity as Director of the
IDOC; Jeff Zmuda, in his official capacity as Deputy
Director of the IDOC; Al Ramirez, in his official
capacity as Warden of the Idaho State Correctional
Institution; and Scott Eliason, M.D., were the
appellants in the proceeding below and are the
Petitioners here. Corizon, Inc., Murray Young,
Catherine Whinnery, Howard Keith Yordy, Richard
Craig, and Rona Siegert were also appellants in the
proceeding below. Adree Edmo was the appellee in the
court below and is the Respondent here.
DIRECTLY RELATED PROCEEDINGS
United States Court of Appeals (9th Cir.):
Adree Edmo (a/k/a/ Mason Edmo) vs. Idaho
Department of Correction, et al., and Corizon,
Inc., et al., No. 19-35552 (Judgment has not been
entered)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW . . . . . iii
DIRECTLY RELATED PROCEEDINGS . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Dr. Eliason treated Edmo for gender
dysphoria in prison; in 2016, he made the
medical decision not to recommend sex
reassignment surgery for Edmo.. . . . . . . . . . . 3
B. Edmo filed a lawsuit alleging her treatment
for gender dysphoria was constitutionally
inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
C. The district court issued an injunction
ordering Idaho to provide Edmo with sex
reassignment surgery . . . . . . . . . . . . . . . . . . 11
D. The Ninth Circuit panel affirmed the
injunction issued by the district court . . . . . 12

v
E. The Ninth Circuit denied Defendants’
request for rehearing en banc, despite the
disagreement of ten circuit judges . . . . . . . . 15
REASONS FOR GRANTING THE PETITION . . . 17
I. Certiorari is warranted on the First Question
Presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
A. The Ninth Circuit’s adoption of guidelines
set by an advocacy organization creates a
circuit split with the First, Fifth, Tenth,
and Eleventh Circuits . . . . . . . . . . . . . . . 17
B. The Ninth Circuit’s adoption of guidelines
set by an advocacy organization conflicts
with this Court’s precedents . . . . . . . . . . 22
II. Certiorari is warranted on the Second Question
Presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
A. The
Ninth
Circuit’s
deliberate
indifference analysis conflicts with
Estelle v. Gamble by imposing liability
for what could, at most, be mere medical
negligence . . . . . . . . . . . . . . . . . . . . . . . . . 25
B. The
Ninth
Circuit’s
deliberate
indifference analysis conflicts with
Farmer v. Brennan by ignoring the
subjective component of deliberate
indifference. . . . . . . . . . . . . . . . . . . . . . . . 30
C. The Questions Presented involve
recurring issues of national importance . 33
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

vi
APPENDIX
Appendix A Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(February 10, 2020) . . . . . . . . . . . App. 1
Appendix B Per Curiam Opinion in the United
States Court of Appeals for the Ninth
Circuit
(August 23, 2019) . . . . . . . . . . . . App. 53
Appendix C Order in the United States District
Court for the District of Idaho
(May 31, 2019). . . . . . . . . . . . . . App. 147
Appendix D Findings of Fact, Conclusions of Law,
and Order in the United States
District Court for the District of Idaho
(December 13, 2018) . . . . . . . . . App. 152

vii
TABLE OF AUTHORITIES
Cases
Armstrong v. Mid-Level Prac. John B. Connally
Unit,
No. SA-18-CV-00677-XR, 2020 WL 230887
(W.D. Tex. Jan. 15, 2020) . . . . . . . . . . . . . . . . . . 36
Atkins v. Parker,
412 F. Supp. 3d 761 (M.D. Tenn. 2019) . . . . . . . 35
Avilez v. Barr,
No. 19-cv-08296-CRB, 2020 WL 570987
(N.D. Cal. Feb. 5, 2020) . . . . . . . . . . . . . . . . . . . 36
Bell v. Wolfish,
441 U.S. 520 (1979). . . . . . . . . . . 17, 22, 23, 24, 35
Campbell v. Kallas,
936 F.3d 536 (7th Cir. 2019). . . . . . . . . . . . . . . . 19
Clark v. LeBlanc,
No. 3:19-00512-BAJ-RLB, 2019 WL 5085425
(M.D. La. Oct. 10, 2019) . . . . . . . . . . . . . . . . . . . 36
Corr. Servs. Corp. v. Malesko,
534 U.S. 61 (2001). . . . . . . . . . . . . . . . . . . . . . . . 26
Dana v. Tewalt,
No. 1:18-cv-00298-DCN, 2020 WL 1545786
(D. Idaho Apr. 1, 2020) . . . . . . . . . . . . . . . . . . . . 36
Druley v. Patton,
601 Fed. App’x 632 (10th Cir. 2015). . . . . . . 21, 33
Estelle v. Gamble,
429 U.S. 97 (1976). . . . . . . . . . . . . . . . . . . . passim

viii
Farmer v. Brennan,
511 U.S. 825 (1994). . . . . . . . . . . . . . . . . . . passim
Gibson v. Collier,
920 F.3d 212 (5th Cir. 2019),
cert. denied, 140 S. Ct. 653 (2019) . . 19, 23, 27, 37
Gonzales v. Cal. Dep’t of Corrs. & Rehab.,
No. 1:19-cv-01467BAM (PC), 2020 WL 1847491
(E.D. Cal. Apr. 13, 2020). . . . . . . . . . . . . . . . . . . 36
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . . . . . . 25
Jackson v. Kallas,
No. 17-cv-350-bbc, 2020 WL 1139769
(W.D. Wis. Mar. 9, 2020) . . . . . . . . . . . . . . . . . . 36
Keohane v. Florida Department of Corrections
Secretary,
952 F.3d 1257 (11th Cir. 2020). . . . . 21, 22, 29, 35
Keohane v. Jones,
328 F. Supp. 3d 1288 (N.D. Fla. 2018). . . . . . . . 22
Kosilek v. Spencer,
774 F.3d 63 (1st Cir. 2014),
cert. denied, Kosilek v. O’Brien, 135 S. Ct. 2059
(2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Lamb v. Norwood,
262 F. Supp. 3d (D. Kan. 2017) . . . . . . . . . . 20, 21
Lamb v. Norwood,
899 F.3d 1159 (10th Cir. 2018),
cert. denied, 140 S. Ct. 252 (2019) . . . . . 21, 29, 37

ix
Minneci v. Pollard,
565 U.S. 118 (2012). . . . . . . . . . . . . . . . . . . . . . . 25
Monroe v. Baldwin,
No. 18-CV-00156-NJR-MAB, 2019 WL 6918474
(S.D. Ill. Dec. 19, 2019) . . . . . . . . . . . . . . . . . . . . 36
Monroe v. Meeks,
No. 18-cv-00156-NJR, 2020 WL 1048770
(S.D. Ill. Mar. 4, 2020) . . . . . . . . . . . . . . . . . . . . 36
Murillo v. Godfrey,
No. 2:18-cv-02342-JGB-JC, 2020 WL 1139811
(C.D. Cal. Mar. 9, 2020) . . . . . . . . . . . . . . . . . . . 36
Ortiz v. Jordan,
562 U.S. 180 (2011). . . . . . . . . . . . . . . . . . . . . . . 31
Porter v. Crow,
No. 18-CV-0472-JED-FHM, 2020 WL620284
(N.D. Okla. Feb. 10, 2020) . . . . . . . . . . . . . . . . . 36
Rhodes v. Chapman,
452 U.S. 337 (1981). . . . . . . . . . . . . . . . . . . . . . . 35
Woodcock v. Correct Care Solutions, LLC,
No. 3:16-cv-00096-GFVT, 2020 WL 556391
(E.D. Ky. Feb. 4, 2020) . . . . . . . . . . . . . . . . . . . . 35
Constitutional Provisions
U.S. Const. amend. VIII. . . . . . . . . . . . . . . . . . passim
Statutes
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

x
Other Authorities
William Byne et al., Report of the American
Psychiatric Association Task Force on Treatment
of Gender Identity Disorder, 41 Archives of
Sexual Behav. 759 (2012) . . . . . . . . . . . . . . . . 9, 24
California murder convict becomes first U.S. inmate
to have state-funded sex reassignment surgery,
L.A. TIMES (Jan. 6, 2017), https://www.latimes
.com/local/lanow/la-me-ln-inmate-sexreassignment-20170106-story.html . . . . . . . . . 4, 5
CMS, DECISION MEMO FOR GENDER DYSPHORIA AND
GENDER REASSIGNMENT SURGERY (Aug. 30,
2016), https://go.cms.gov/36yMrxX . . . . . 9, 23, 37
Anthony F. Granucci, “Nor Cruel and Unusual
Punishment Inflicted:” The Original Meaning, 57
Cal. L. Rev. 839 (1969) . . . . . . . . . . . . . . . . . . . . 34
WPATH, Standards of Care for the Health of
Transsexual, Transgender, and Gender
Nonconforming People (7th ed. 2011) . . . . passim

1
OPINIONS BELOW
The Ninth Circuit’s opinion is reported at 935 F.3d
757 (9th Cir. 2019) and is reprinted in the Appendix to
the Petition (“App.”) at 53-146. The initial opinion of
the district court is reported at 358 F. Supp. 3d 1103
(D. Idaho 2018) and reprinted at App. 152-202. The
district court’s clarifying order on limited remand from
the Ninth Circuit is unreported but available at 2019
WL 2319527 and is reprinted at App. 147-51.
JURISDICTION
The Court of Appeals entered its judgment in this
matter on August 23, 2019 and denied rehearing en
banc on February 10, 2020. App. 1-5, 53-146. Ten
circuit judges would have granted rehearing en banc.
Id. 5-52. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL, STATUTORY AND
REGULATORY PROVISIONS INVOLVED
This case involves U.S. Constitution Amendment
VIII, which states “Excessive bail shall not be required,
nor excessive fines imposed, nor cruel and unusual
punishments inflicted.”
INTRODUCTION
The Ninth Circuit held that prison psychiatrist
Dr. Scott Eliason violated the Eighth Amendment’s
prohibition against cruel and unusual punishments
when he recommended treating inmate Adree Edmo’s
gender dysphoria with hormone therapy and
counseling but not sex reassignment surgery, a

2
controversial and uncommon procedure that, at the
relevant time, had never before been performed in a
prison setting and, to date, has only been performed
once in a prison setting. The Ninth Circuit is the first
circuit in the nation to reach this conclusion, which it
did by adopting the guidelines of an advocacy group as
the constitutional minima for the treatment of gender
dysphoria, creating a conflict with the First, Fifth,
Tenth, and Eleventh Circuits.
The Ninth Circuit’s decision also directly conflicts
with this Court’s binding precedent. In Estelle v.
Gamble, 429 U.S. 97 (1976), this Court clearly
established that a provider’s mere negligence in
treatment decisions does not violate the Eighth
Amendment. But the Ninth Circuit applied a mere
negligence standard to determine whether there was a
constitutional violation here. And in Farmer v.
Brennan, 511 U.S. 825 (1994), this Court clarified that
a provider only acts with deliberate indifference to
serious medical needs, the standard required to violate
the Eighth Amendment, if he subjectively knows of and
disregards an excessive risk to inmate health or safety.
Yet the Ninth Circuit only considered Dr. Eliason’s
reasoning in the context of finding his treatment
decision unreasonable. The Ninth Circuit failed to
evaluate whether Dr. Eliason knew his treatment
decision was medically unacceptable, nor did it
consider that Dr. Eliason was balancing the significant
risk of sex reassignment surgery to Edmo with his
informed treatment decision.
If left unchecked, the Ninth Circuit’s decision
threatens to have an immediate detrimental and

3
destabilizing effect on prisons nationwide. It
diminishes this Court’s deliberate indifference
standard into a negligence determination that is
controlled by the goals of advocacy groups and that
places the federal judiciary in the role of a prison
medical review committee, with grave consequences.
Ten Ninth Circuit judges would have granted
Petitioners’ request for rehearing en banc based on the
issues discussed in this petition. The petition for a writ
of certiorari should be granted.
STATEMENT OF THE CASE
A. Dr. Eliason treated Edmo for gender
dysphoria in prison; in 2016, he made the
medical decision not to recommend sex
reassignment surgery for Edmo.
Dr. Scott Eliason is a board-certified psychiatrist
who is experienced and trained in treating prisoners,
including those with gender dysphoria. ER1 797 (Tr.
401:4-25), ER 802 (Tr. 406:3-6, 16-21), ER 816 (Tr.
420:8-13). He is the Regional Psychiatric Director for
Corizon, a company that provides certain medical
services for inmates in Idaho Department of Correction
(“IDOC”) custody. App. 61 n.1; ER 797 (Tr. 401:3-4).
In 2012, Dr. Eliason was assigned a new patient,
Adree Edmo (who was then known as Mason Edmo),
who had recently pled guilty to sexually assaulting a
sleeping 15 year-old boy. App. 73; ER 1513. Well before

1

All citations to “ER” are to the Excerpt of Record filed in the
Ninth Circuit by the Defendants-Appellants.

4
her 2012 incarceration, Edmo suffered from abuse,
trauma, and profound mental illness and was
repeatedly non-compliant with treatment. App. 75; ER
880, 882, 884-86. Edmo attempted suicide at least twice
in the years prior to her arrest. App. 75; ER 602 (Tr.
206:14-16).
Dr. Eliason diagnosed Edmo with gender identity
disorder, now known as gender dysphoria, in June
2012. App. 73. Shortly after, prison doctors started
Edmo on hormone therapy. Id. 74. She now has the
same circulating hormones and secondary sexual
characteristics as an adult female. Id. 74-75. The
hormones have “alleviate[ed] her gender dysphoria to
some extent.” Id. 74.
Dr. Eliason and other prison providers also
recommended that Edmo participate in mental health
treatment and counseling to reduce her gender-related
dysphoria and co-existing mental health conditions. Id.
75, 182. However, Edmo repeatedly refused to attend
treatment and declined to fully participate in
counseling, which the district court found “troubling.”
Id.
Dr. Eliason met with Edmo regularly following her
diagnosis. ER 811 (Tr. 415:4-12). In April 2016,
Dr. Eliason evaluated Edmo for sex reassignment
surgery. App. 76. At that time, no prisoner in the
United States had ever received such a surgery.2

2

As of the 2018 evidentiary hearing, only one other prisoner in the
U.S. had received sex reassignment surgery. ER 208 (Tr. 514:9-11),
ER 1088 (Tr. 110:9-12); California murder convict becomes first

5
Dr. Eliason noted that Edmo reported she was “doing
alright.” App. 76. Edmo reported that hormone therapy
had improved her dysphoria, but she remained
frustrated by her genitalia; she had attempted selfcastration months earlier. Id. Dr. Eliason correctly
indicated in his charting that “Medical Necessity for
Sexual Reassignment Surgery is not very well defined
and is constantly shifting.” Id. 77; ER 1730. He noted
that one indicator of medical necessity for sex
reassignment surgery was “severe and devastating
dysphoria that is primarily due to genitals[.]” App. 76.
Dr. Eliason “did not see significant dysphoria” at his
April 2016 evaluation of Edmo. Id. 76-77. “[I]nstead,
she ‘looked pleasant and had a good mood.’” Id. 77. Dr.
Eliason also spoke to prison staff, who confirmed Edmo
had “animated affect and no observed distress.” Id. Dr.
Eliason was concerned, in the absence of more severe
distress, about the risks of pursuing the most
aggressive—and permanent—gender dysphoria
treatment: surgery. ER 1730; ER 189 (Tr. 495:10-12);
ER 826-28 (Tr. 430:22-432:11); ER 229 (Tr. 535:1-13).
There were two additional reasons underlying Dr.
Eliason’s decision.3 App. 78, 179. First, Dr. Eliason
concluded that Edmo’s separate mental health
conditions—including major depressive disorder and
U.S. inmate to have state-funded sex reassignment surgery, L.A.
TIMES (Jan. 6, 2017), https://www.latimes.com/local/lanow/la-meln-inmate-sex-reassignment-20170106-story.html.
3

The Ninth Circuit suggested that these were post-hoc
explanations, but the district court made no such finding and only
determined that Dr. Eliason did not follow the advocacy group’s
treatment guidelines. App. 118, 180.

6
substance abuse—were not adequately controlled. Id.
78. Dr. Eliason was concerned about Edmo’s ability to
cope with the stressful process of the life-changing
surgery and transition. ER 180-81 (Tr. 486:5-487:11);
ER 237 (Tr. 543:1-11); ER 827-28 (Tr. 431:3-432:11).
Second, Dr. Eliason was concerned that Edmo had
not yet had an opportunity to live as a woman in an
out-of-prison social setting. App. 78. Dr. Eliason was
aware of reports of high suicide rates for postoperative
patients and concerned that Edmo might be at a
greater risk of suicide given the potential lack of
support from family, friends, and her social network
during her transition. ER 827-28 (Tr. 431:3-432:11). He
knew Edmo would be parole eligible in 2016 and would
soon have the opportunity to live as a woman in her
community before undergoing the irreversible
procedure; Dr. Eliason was gravely concerned that “it
was not doing Ms. Edmo any service to rush through
getting gender reassignment surgery in that current
social situation.”4 Id.; ER 180 (Tr. 486:6-13), ER 827
(Tr. 431:3-6); App. 179.
Prior to making a final decision, Dr. Eliason
researched how entities like Medicare and Medicaid
handled sex reassignment surgery and he sought input
from providers and mental health colleagues with
different backgrounds and viewpoints. ER 821 (Tr.
4

Edmo has not been granted parole due to her refusal to complete
Sex Offender Treatment Programming and significant disciplinary
history, which includes multiple offenses for assault, theft, and
sexual contact. ER 3149-51; ER 1113 (Tr. 135:12-18); ER 3401.
Edmo will complete her current sentence in July 2021 and will be
released at that time. ER 626 (Tr. 230:2-10); ER 3401.

7
425:2-5), ER 823 (Tr. 427:20-24). Dr. Eliason staffed
the evaluation with Dr. Jeremy Stoddart (for another
psychiatric viewpoint) and Dr. Murray Young,
Corizon’s Regional Medical Director (for a medical
perspective), as well as Jeremy Clark, an IDOC clinical
supervisor and member of the World Professional
Association for Transgender Health (“WPATH”) (for a
WPATH perspective). App. 77; ER 821 (Tr. 425:7-14);
ER 717 (Tr. 321:17-22). He also presented the
evaluation to the prison Management and Treatment
Committee (“MTC”), a multi-disciplinary team of
medical, mental health, and security professionals that
regularly discusses how best to meet the unique needs
of prisoners diagnosed with gender dysphoria. App. 78.
There was universal agreement with Dr. Eliason’s
treatment plan. Id. 77-78.
Ultimately, Dr. Eliason decided not to refer Edmo
for sex reassignment surgery and to maintain the
treatment that had already been helpful for Edmo,
including hormone therapy and counseling. Id. He left
the door open to revisit the decision. Id. To deter any
future self-castration attempts, Dr. Eliason explained
to Edmo the importance of having intact genitals for
any future sex reassignment surgery. ER 818 (Tr.
422:21-24).
By September 2016, Dr. Eliason had stopped
treating Edmo because she had moved off the
Behavioral Health Unit. ER 798-99 (Tr. 402:22-403:5),
ER 811 (Tr. 415:6-12), ER 186 (Tr. 492:21-493:3); ER
1759. Edmo continued to be monitored by the MTC and
treated by other providers and clinicians. ER 186-87
(Tr. 492:21-493:3). Dr. Eliason reviewed her case in the

8
context of the MTC meetings, but he was never asked
to reevaluate her for sex reassignment surgery. ER 187
(Tr. 493:3-9).
Edmo attempted self-castration for a second time in
December 2016. App. 79. Dr. Eliason felt Edmo’s selfcastration attempts were reflective of her poor coping
response to stressors, such as discipline, rather than
indicia of an immediate need for sex reassignment
surgery. ER 180-81 (Tr. 486:22-487:11). His informed
medical opinion continues to be that if sex
reassignment surgery is ever indicated, doing so “on
the outside [of prison] would best suit Ms. Edmo.” ER
180 (Tr. 486:12-13).
B. Edmo filed a lawsuit alleging her treatment
for gender dysphoria was constitutionally
inadequate.
About a year after the 2016 evaluation, Edmo filed
suit under 42 U.S.C. § 1983 against Dr. Eliason, the
IDOC, Corizon, and several other prison medical
providers and staff, alleging that the denial of sex
reassignment surgery had, among other things,
violated her Eighth Amendment right to be free from
cruel and unusual punishment. App. 80. She filed a
motion for a preliminary injunction to compel the
provision of sex reassignment surgery. Id. 81.
In October 2018, following four months of discovery,
the district court held an evidentiary hearing on the
requested preliminary injunction. Id. Dr. Eliason,
Clinician Clark, and Edmo testified at the hearing. Id.
82. Four expert witnesses also testified at the hearing.
Id.

9
Edmo’s experts were Dr. Randi Ettner, a
psychologist, and Dr. Ryan Gorton, an emergency room
physician. Id. 82, 85. Both doctors are heavily involved
in WPATH. Id. 82, 86.
WPATH is an advocacy organization dedicated to
“developing best practices and supportive policies
worldwide that promote health, research, education,
respect, dignity, and equality for transsexual,
transgender, and gender nonconforming people in all
cultural settings.” ER 2938 (WPATH, Standards of Care
for the Health of Transsexual, Transgender, and Gender
Nonconforming People, 1 (7th ed. 2011) (“Standards”)).
WPATH promulgates guidelines, which it calls
“Standards of Care” (referred to herein as “Standards”),
that provide treatment recommendations.5 See App. 66,
158.
The term “Standards of Care” is a misnomer. The
WPATH Standards do not reflect accepted standards of
care in the medical community. The Centers for
Medicare and Medicaid Services (“CMS”) have refused
to adopt them as controlling and at least one medical
group has expressed concern regarding their scientific
underpinnings. CMS, DECISION MEMO FOR GENDER
DYSPHORIA AND GENDER REASSIGNMENT SURGERY (Aug.
30, 2016), https://go.cms.gov/36yMrxX; see also ER 54481 (William Byne et al., Report of the American
Psychiatric Association Task Force on Treatment of
5

While Petitioners use the shorthand “Standards” to refer to the
WPATH Standards to be consistent with the terminology used by
the courts of appeal, they do not concede that the WPATH
Standards equate with a medically-accepted and endorsed
standard of care.

10
Gender Identity Disorder, 41 Archives of Sexual Behav.
759, 783 (2012)). Even WPATH itself states that the
Standards are intended to be “flexible clinical
guidelines” from which providers may deviate. App. 68.
The WPATH Standards set forth six suggested
criteria for male-to-female sex reassignment surgery:
(1)
(2)
(3)
(4)
(5)
(6)

persistent, well documented gender
dysphoria;
capacity to make a fully informed decision
and to consent for treatment;
age of majority. . .;
if significant medical or mental health
concerns are present, they must be well
controlled;
12 continuous months of hormone therapy
as appropriate to the patient’s gender
goals; and
12 continuous months of living in a
gender role that is congruent with their
gender identity.

Id. 70-71 (quoting Standards at 60 (ER 2997)) (internal
quotation marks omitted).
Dr. Ettner and Dr. Gorton testified that, in their
opinions, Edmo needed sex reassignment surgery, in
part, because she met the suggested criteria for sex
reassignment surgery in the Standards and because
she was unlikely to have further improvement in her
gender dysphoria without surgery. Id. 83-87.
Defendants’ experts were Dr. Keelin Garvey, M.D.,
the former Chief Psychiatrist of the Massachusetts

11
Department of Correction (MADOC) and Chair of its
Gender Dysphoria Treatment Committee, and Dr. Joel
Andrade, Ph.D., a clinical social worker who served as
MADOC’s Clinical Director and member of the same
Gender Dysphoria Treatment Committee. Id. 88, 90.
Dr. Garvey and Dr. Andrade disagreed with Edmo’s
experts. Dr. Garvey testified that she did not regard
the WPATH Standards as definitive treatment criteria,
let alone reflective of medical consensus. ER 225-28
(Tr. 531:5-534:7). She testified the evidence underlying
the Standards was not sufficiently developed,
particularly as to the treatment of gender dysphoric
prisoners. Id. Dr. Garvey opined Dr. Eliason had used
“his clinical judgment to apply decision-making[.]” ER
221 (Tr. 527:5-7).
Both Dr. Garvey and Dr. Andrade agreed with Dr.
Eliason that sex reassignment surgery was not
appropriate for Edmo. App. 89-92. They raised concerns
that she would have problems transitioning after
surgery because her co-existing mental health concerns
were not well controlled. Id. And they were concerned
that she had not yet lived as a woman outside of prison,
meaning that she did not yet know if she and her social
network were ready for the post-surgery challenges. Id.
C. The district court issued an injunction
ordering Idaho to provide Edmo with sex
reassignment surgery.
The district court analyzed the evidence in the
context of a motion for preliminary injunction. See App.
184-86.

12
In analyzing Edmo’s likelihood of success on the
merits, the district court first looked at whether sex
reassignment surgery was medically necessary for
Edmo. Id. 191-95. As a critical threshold issue, the
district court found the WPATH Standards to be the
standard of care for the treatment of gender dysphoria
in incarcerated patients. Id. 191. Using the Standards
as its touchstone, the district court found the State’s
experts “unconvincing” and gave their opinions
“virtually no weight.” Id. 191-95. The district court
then found the “Defendants” as a whole had been
deliberately indifferent to Edmo’s medical needs
(focusing on findings it felt suggested bias by IDOC and
Corizon against providing sex reassignment surgery).
Id. 195-97.
The district court never found or concluded that Dr.
Eliason himself was deliberately indifferent, nor did it
find that Dr. Eliason was not credible. See id. 156-200.
The district court’s only conclusion specific to
deliberate indifference by Dr. Eliason was that, in the
court’s view, he “did not apply the WPATH criteria” or
his evaluation “failed to accurately apply the WPATH”
guidelines. Id. 195. The district court granted Edmo’s
motion for preliminary injunction and ordered
Defendants to provide Edmo with sex reassignment
surgery. Id. 201. In a footnote, the district court
suggested it had “effectively converted” the evidentiary
hearing into a final trial on the merits. Id. 185-86 n.1.
D. The Ninth Circuit panel affirmed the
injunction issued by the district court.
The Defendants timely appealed the district court’s
decision to the Ninth Circuit. Before issuing its opinion,

13
the panel remanded the case to the district court on the
limited question of whether the injunction was
preliminary or permanent. Id. 147-48. In response, the
district court issued an order stating it had granted
permanent injunctive relief and that it had found Edmo
succeeded on the merits of her Eighth Amendment
claim. Id. 149-51.
Three months later, the Ninth Circuit panel issued
its opinion affirming the district court’s finding that
Dr. Eliason violated Edmo’s Eighth Amendment rights
and the order instructing Idaho prison officials to
provide Edmo with sex reassignment surgery. Id. 13132, 145.6
The Ninth Circuit applied the following test to
determine whether there was deliberate indifference:
(1) whether “the course of treatment the [official] chose
was medically unacceptable under the circumstances”
and (2) whether “the [official] chose this course in
conscious disregard of an excessive risk to the
plaintiff’s health.” Id. 105-06.
To answer the first question, the Ninth Circuit
affirmed the district court’s expert credibility
determinations, using compliance with the WPATH
Standards as its touchstone. Id. 107-08, 111-16 (“the

6

The panel reversed and vacated the injunction as to all
Defendants named in their individual capacities, other than Dr.
Eliason, as there was insufficient evidence to conclude they were
deliberately indifferent. App. 136. The panel affirmed the
injunction against several IDOC officials named in their official
capacities whom the panel held would be responsible for
implementing the injunction. Id. 135-36.

14
district court did not err in crediting the opinions of
Edmo’s experts over those of the State because aspects
of Dr. Garvey’s and Dr. Andrade’s opinions ran
contrary to the established standards of care in the
area of transgender health care—the WPATH
Standards”). The panel approved the district court’s
decision to “credit[] the opinions of Edmo’s experts”
because it agreed their testimony was the most
consistent with the WPATH Standards. Id. 111-16. And
it refused to give any deference to the judgment of the
prison doctors. Id. 106. With that baseline, the panel
concluded the “credited expert testimony established
that [sex reassignment surgery] is medically necessary
to alleviate Edmo’s gender dysphoria.” Id. 116.
The panel then held that Dr. Eliason’s decision not
to recommend sex reassignment surgery was
unreasonable because he “did not follow” or “reasonably
deviate” from the WPATH Standards. Id. 117-21 (“Dr.
Eliason did not follow accepted standards of care in the
area of transgender health care . . . . [The criteria he
applied bore] little resemblance to the widely accepted,
evidence-based criteria set out in the WPATH’s
Standards . . . “; “Dr. Eliason’s criteria . . . are so far
afield from the WPATH standards that we cannot
characterize his decision as a flexible application of or
deviation from those standards.”). The panel
discounted the agreement of Dr. Stoddart, Dr. Young,
and Clinician Clark and the MTC with Dr. Eliason’s
assessment because “general agreement in a medically
unacceptable form of treatment does not somehow
make it reasonable.” Id. 121 n.18.

15
In applying the second part of its test—whether the
treatment was chosen in conscious disregard to an
excessive risk to Edmo’s health—the panel held that
Dr. Eliason was deliberately indifferent simply because
he “knew . . . that Edmo had attempted to castrate
herself” and “continued with Edmo’s . . . treatment
plan” and he knew of Edmo’s second attempt at selfcastration in December 2016 but did not “change his
mind or the treatment plan regarding surgery.” Id.
121-22. The panel did not discuss whether Dr. Eliason
knew his treatment decision was medically
unacceptable, nor did it consider that Dr. Eliason
stopped being Edmo’s treating physician prior to
Edmo’s second self-castration attempt. Further, the
panel did not consider that Dr. Eliason took steps to
avert the risk of self-castration, or that Dr. Eliason’s
treatment decision was the result of his effort to
balance multiple risks to Edmo’s well-being.
E. The Ninth Circuit denied Defendants’
request for rehearing en banc, despite the
disagreement of ten circuit judges.
The Defendants timely petitioned for rehearing en
banc, but the Ninth Circuit denied the petition. Id. 5.
Judge O’Scannlain, joined by eight other judges,
opined in a statement respecting the denial of
rehearing en banc that the panel first erred in
analyzing what it meant for medical treatment to be
“unacceptable” under the Eighth Amendment by
(1) defining “constitutionally acceptable medical care”
by the “standards of one organization”; (2) adopting the
guidelines of “a controversial self-described advocacy
group that dresses ideological commitments as

16
evidence-based conclusions”; and (3) failing to recognize
the case was one of “dueling experts.” Id. 16. Even if
this were not error, Judge O’Scannlain continued, the
panel erred in its deliberate indifference inquiry by
disregarding risks that Dr. Eliason addressed and by
fixating on just one risk when Dr. Eliason made a
considered treatment choice in a complex situation that
he believed “would mitigate overall risk.” Id. 30
(emphasis omitted). Judge O’Scannlain warned that
the panel’s approach had created a circuit split. Id. 32.
Judge Collins dissented from the denial of rehearing
en banc, opining that the panel failed to apply this
Court’s binding precedent in Estelle v. Gamble by
watering the analysis down to a “mere negligence” test.
Id. 37-38.
Finally, Judge Bumatay, joined by five other judges
in full and six in part, also dissented from rehearing en
banc, and opined that Dr. Eliason’s conduct was not a
violation of the Eighth Amendment based on the text
and original understanding of the Constitution because
of the yet unproven, contested, and evolving nature of
the WPATH Standards, the lack of medical consensus,
and the particular circumstances of the case. Id. 38-47.
Judge Bumatay further maintained that the panel’s
decision had departed from this Court’s precedent by
diluting the deliberate indifference standard to mere
negligence and erasing the subjective component of the
deliberate indifference standard through circular
reasoning. Id. 47-52.

17
REASONS FOR GRANTING THE PETITION
I. Certiorari is warranted on the First Question
Presented.
The Ninth Circuit elevated the WPATH Standards
to constitutional canon and found Dr. Eliason
deliberately indifferent merely because he did not
adhere to the advocacy organization’s guidelines. As
Judge O’Scannlain, joined by eight other judges,
identified, the Ninth Circuit’s “novel approach . . .
conflicts with every other circuit to consider the issue.”
App. 32. The Ninth Circuit’s decision also conflicts with
this Court’s precedent, which established that the
views of professional organizations and special interest
groups do not set constitutional requirements for
prison conditions. See Bell v. Wolfish, 441 U.S. 520
(1979). This Court should grant certiorari to resolve the
circuit split and to issue a definitive answer to this
important question.
A. The Ninth Circuit’s adoption of guidelines
set by an advocacy organization creates a
circuit split with the First, Fifth, Tenth,
and Eleventh Circuits.
Five courts of appeals have directly addressed the
question of what constitutes cruel and unusual
punishment in the context of gender dysphoria
treatment in prison. Four of those courts, the First,
Fifth, Tenth, and Eleventh Circuits, have rejected
efforts to chain the determination of whether prison
officials and providers acted with deliberate
indifference to an inmate’s serious medical needs to
their adherence to the treatment guidelines set by the

18
advocacy organization WPATH and its predecessors.
The Ninth Circuit stands alone.
1. As Judge O’Scannlain explained, the Ninth
Circuit “enshrine[d] the WPATH Standards as an
enforceable ‘medical consensus,’ effectively putting an
ideologically driven private organization in control of
every relationship between a doctor and a gender
dysphoric prisoner within [the Ninth] circuit.” App. 36.
The Ninth Circuit held that prison psychiatrist Dr.
Eliason was deliberately indifferent because, it
concluded, Dr. Eliason’s medical decision not to
recommend sex reassignment surgery did not follow or
“reasonably deviate” from the WPATH Standards. Id.
117-22. The Ninth Circuit reached its conclusion by
affirming the district court’s decision to discount any
testimony that did not adhere to the WPATH
Standards. Id. 108-17. To quote Judge O’Scannlain,
“[b]y rejecting any expert not (in the court’s view)
appropriately deferential to WPATH, the district court
and . . . the panel . . . effectively decided ab initio that
only the WPATH Standards could constitute
[constitutionally] . . . acceptable treatment.”7 App. 1920.

7

The panel incorrectly stated that the parties agreed that the
appropriate benchmark for treatment of gender dysphoria was the
WPATH Standards. See App. 61. Defendants never contended or
admitted that prison medical providers were required to base their
treatment decisions on the WPATH Standards. See id. 20 n.6
(“[B]efore the district court and before our court, the State clearly
rejected the notion that any particular treatment criteria defines
what is medically acceptable[.]”). In fact, Defendants presented
evidence of significant deficiencies in the WPATH Standards. See
ER 225-28 (Tr. 531:3-534:7), ER 544-81.

19
2. The Ninth Circuit’s decision is in direct conflict
with the decisions of the First, Fifth, Tenth, and
Eleventh Circuits, which have declined to adopt the
advocacy organization’s guidelines as the constitutional
minima for medical treatment under the Eighth
Amendment.
Just months before the Ninth Circuit issued its
decision, the Fifth Circuit held it could never be
deliberate indifference to deny sex reassignment
surgery as treatment for gender dysphoria. In Gibson
v. Collier, 920 F.3d 212 (5th Cir. 2019), cert. denied,
140 S. Ct. 653 (2019), the Fifth Circuit rejected a
transgender inmate’s argument, which relied
exclusively on the WPATH Standards, that prison
doctors were deliberately indifferent when they denied
the inmate’s request for sex reassignment surgery. Id.
at 218, 221-23. Unlike the Ninth Circuit, the Fifth
Circuit refused to conclude the advocacy organization’s
guidelines were constitutional mandates, stating “the
WPATH Standards . . . reflect not consensus, but
merely one side in a sharply contested medical debate
over sex reassignment surgery.” Id. at 221. “The [Fifth
Circuit] panel majority . . . wasn’t prepared to accept
the [WPATH] Standards as authoritative.” Campbell v.
Kallas, 936 F.3d 536, 547 n.3 (7th Cir. 2019) (citing
Gibson, 920 F.3d at 221-24). The Ninth Circuit has
acknowledged that “its decision is in tension” with the
Fifth Circuit’s decision. App. 125.
Similarly, in Kosilek v. Spencer, 774 F.3d 63 (1st
Cir. 2014), cert. denied, Kosilek v. O’Brien, 135 S. Ct.
2059 (2015), the First Circuit rejected the argument
that the “only constitutionally sufficient treatment

20
regimen [was] to adhere to the Standards of Care’s
[treatment] sequence in full, including the provision of
[sex reassignment surgery].”8 Id. at 86. There, a
transgender inmate with gender dysphoria (then called
gender identity disorder) was treated with conservative
therapies, including mental health therapy and
hormones, but she was denied sex reassignment
surgery. Id. at 68-74. Like the district court here, the
district court in Kosilek discounted the evidence of the
providers who did not adhere to its interpretation of
the WPATH Standards. Id. at 76-77, 81, 87-88. For
example, the trial court refused to credit the prison’s
expert psychiatrist’s testimony in large part because he
did not “follow” the guidelines that preceded the
WPATH Standards. Id. at 76-77, 81, 87-88. Unlike the
Ninth Circuit, the First Circuit deemed this error,
concluding that the district court put too much “weight”
on the WPATH Standards and substituted its own
beliefs for multiple medical experts. Id. at 87-88. The
First Circuit ultimately “held that medically acceptable
treatment of gender dysphoric prisoners is not
synonymous with the demands of WPATH.” App. 33.
The Tenth Circuit has also twice refused to adopt
the WPATH Standards as constitutionally mandated.
In Lamb v. Norwood, 262 F. Supp. 3d 1151, 1156-57 (D.
Kan. 2017), an inmate claimed that prison medical

8

In Kosilek, the court was asked to apply an earlier version of the
Standards issued by WPATH’s predecessor, the Harry Benjamin
International General Dysphoria Association. See Kosilek, 774 F.3d
at 70 n.3. The treatment options in the earlier version of the
Standards are essentially the same as the version of the WPATH
Standards at issue here. Id. at 70 n.4; App. 68-69.

21
providers and officials violated “her Eighth
Amendment rights by treating her in a manner that
[fell] short of WPATH standards” and that she was
entitled to a number of gender dysphoria treatments,
including sex reassignment surgery. Contrary to this
case, the district court concluded that the prison
medical provider’s medical judgment that weighed the
costs and benefits of sex reassignment surgery against
more conservative therapies precluded a finding of
deliberate indifference, in spite of the provider’s
deviation from the WPATH Standards. Id. at 1157-59.
The Tenth Circuit affirmed, implicitly adopting the
district court’s refusal to enshrine the WPATH
Standards as constitutional minima. See Lamb v.
Norwood, 899 F.3d 1159, 1163 (10th Cir. 2018), cert.
denied, 140 S. Ct. 252 (2019). Moreover, three years
prior, the Tenth Circuit, in an unpublished opinion,
affirmed the district court’s denial of a preliminary
injunction sought by an inmate ordering the prison
defendants to raise her hormone levels to the levels
recommended by the WPATH Standards. See Druley v.
Patton, 601 Fed. App’x 632, 633 (10th Cir. 2015). The
Tenth Circuit concluded that simple deviation from the
WPATH Standards, without more, was insufficient to
even demonstrate a substantial likelihood of success on
the merits of the deliberate indifference claim. Id. at
635.
Most recently, the Eleventh Circuit similarly
refused to find that the WPATH Standards set the
constitutional minima for medical care for transgender
inmates. In Keohane v. Florida Department of
Corrections Secretary, 952 F.3d 1257 (11th Cir. 2020),
a transgender inmate diagnosed with gender dysphoria

22
sought social transitioning—“in particular, to wear
long hair, makeup, and female undergarments.” Id. at
1262. Just like the district court here, the district court
in Keohane erroneously refused to credit medical
testimony that did not follow the WPATH Standards.
See Keohane v. Jones, 328 F. Supp. 3d 1288, 1312 (N.D.
Fla. 2018). It found deliberate indifference, in part,
because the prison did not apply the WPATH
Standards. Id. at 1316. The Eleventh Circuit rejected
the district court’s reasoning, implicitly concluding that
the failure to adhere to the WPATH Standards did not
render the denial of sex reassignment surgery cruel
and unusual punishment. Keohane, 952 F.3d at 1277,
1278 n.15. The dissent pointed out the split with the
Ninth Circuit, citing the Ninth Circuit’s decision for the
proposition that other courts “have found” the WPATH
Standards “authoritative for treating gender dysphoria
in prison” and using the Ninth Circuit’s decision to
“highlight[] the ways the majority ha[d] gone wrong.”
Id. at 1296, 1300 (Wilson, J., dissenting) (citations
omitted).
The above decisions demonstrate that a clear circuit
split exists as to whether an advocacy organization’s
guidelines constitute constitutional mandates.
B. The Ninth Circuit’s adoption of guidelines
set by an advocacy organization conflicts
with this Court’s precedents.
The Ninth Circuit’s decision to adopt the guidelines
of an advocacy organization as the constitutional
minima for prison medical care also conflicts with this
Court’s precedent. In Bell v. Wolfish, this Court refused
to adopt the correctional standards issued by various

23
advocacy and special interest groups as constitutional
requirements for the purposes of an Eighth
Amendment challenge to the space provided to pretrial
detainees. 441 U.S. at 543 n.27. “[R]ather, they
establish goals recommended by the organization in
question.” Id.
This Court’s reasoning compels the conclusion that
the WPATH Standards similarly do not establish the
constitutional requirements for the treatment of
inmates with gender dysphoria. WPATH is “an
advocacy group for the transgendered” and the
Standards are “not a politically neutral document.”
Kosilek, 774 F.3d at 78. As the Fifth and First Circuits
have recognized, “the WPATH Standards . . . reflect not
consensus, but merely one side in a sharply contested
medical debate over sex reassignment surgery.”
Gibson, 920 F.3d at 221 (discussing the First Circuit’s
conclusions in Kosilek). Reflective of this, CMS declined
to adopt the WPATH Standards due to inadequate
scientific backing. CMS, DECISION MEMO FOR GENDER
DYSPHORIA AND GENDER REASSIGNMENT SURGERY (Aug.
30, 2016), https://go.cms.gov/36yMrxX.
Judge O’Scannlain correctly identified that “[t]he
pressure to be advocates appears to have won the day
in the WPATH Standards’ recommendations regarding
institutionalized persons,” as demonstrated by the fact
that WPATH recommends sex reassignment surgery
for inmates who have no experience living as their
chosen gender outside of prison despite the “totally
undeveloped” “medical knowledge about how such
surgery might differ [for incarcerated persons].” App.
22. The evidentiary basis for the WPATH Standards is

24
insufficient to justify constitutionally mandated
compliance. For example, the Standards “lack the
evidence-based grading system that characterizes
archetypal treatment guidelines[.]” Id. 23-24 (citing
William Byne et al., Report of the American Psychiatric
Association Task Force on Treatment of Gender Identity
Disorder, 41 Archives of Sexual Behav. 759, 783 (2012)
(concluding that “the level of evidence” supporting
WPATH Standards’ criteria for sex reassignment
surgery “was generally low”)).
This Court should grant certiorari to resolve the
circuit split as to whether an advocacy group’s
aspirations for medical treatment set constitutional
requirements for medical treatment in prison and to
clarify that the principle established in Bell holds in
the context of medical treatment for prisoners.
II. Certiorari is warranted on the Second
Question Presented.
This Court should also grant certiorari because the
Ninth Circuit’s decision stands in direct defiance of
Estelle v. Gamble and Farmer v. Brennan. Estelle
definitively established that mere medical negligence
cannot amount to deliberate indifference, and Farmer
definitively established that deliberate indifference has
a subjective component. The Ninth Circuit’s decision
contravenes both principles and therefore warrants
review by this Court.

25
A. The Ninth Circuit’s deliberate indifference
analysis conflicts with Estelle v. Gamble by
imposing liability for what could, at most,
be mere medical negligence.
As Judge Bumatay, joined by six other judges, and
Judge Collins identified in their dissents to the denial
of rehearing en banc, the Ninth Circuit disregarded
this Court’s precedent in Estelle by watering down
Estelle’s deliberate indifference standard into a “mere
negligence” test. App. 37, 51. The Ninth Circuit’s
decision is squarely in conflict with Estelle.
1. In Estelle, the Court held that deliberate
indifference by prison doctors in responding to the
serious medical needs of prisoners was proscribed by
the Eighth Amendment. Estelle, 429 U.S. at 104
(citation omitted). However, the Court held, “a
complaint that a physician has been negligent in
diagnosing or treating a medical condition does not
state a valid claim of medical mistreatment under the
Eighth Amendment.” Id. at 106. The “inadvertent
failure to provide adequate medical care” is not “an
unnecessary and wanton infliction of pain” or
“repugnant to the conscience of mankind.” Id. at 10506.
In the years since Estelle and later Farmer v.
Brennan (discussed further below), this Court has
repeatedly reaffirmed that mere negligence,
inadvertence or good-faith error cannot establish
deliberate indifference. See Hope v. Pelzer, 536 U.S.
730, 738 (2002); Minneci v. Pollard, 565 U.S. 118, 130
(2012) (“[T]o show an Eighth Amendment violation a
prisoner must typically show that a defendant acted,

26
not just negligently, but with ‘deliberate indifference.’”
(Citation omitted.)); Corr. Servs. Corp. v. Malesko, 534
U.S. 61, 73 (2001) (discussing how the heightened
deliberate indifference standard set by Estelle and
Farmer “would make it considerably more difficult for
respondent to prevail than on a theory of ordinary
negligence”).
The facts of the Estelle decision demonstrate how
deliberate indifference differs from ordinary negligence.
There, the inmate was treated for a back injury by
multiple doctors and with multiple modalities. Estelle,
429 U.S. at 107. Yet, he contended additional
treatment should have been provided and that his
condition had worsened absent that treatment. Id. at
107; id. at 109 (Stevens, J., dissenting). The court of
appeals agreed, concluding that additional testing
could have led to an appropriate diagnosis and
treatment. Id. at 107. But this Court disagreed, holding
that “[a] medical decision not to order an X-ray, or like
measures, does not represent cruel and unusual
punishment. At most, it is medical malpractice[.]” Id.
Whether additional “forms of treatment is indicated is
a classic example of a matter of medical judgment.” Id.
Treatment decisions derived from an exercise of
medical judgment do not amount to cruel and unusual
punishment. Id.
2. Contrary to Estelle, the Ninth Circuit found
deliberate indifference based solely on Dr. Eliason’s
decision not to recommend the course of treatment that
the district court and the panel found preferable. App.
106-24. Dr. Eliason recommended treating Edmo with
hormone therapy and counseling, but, based on his

27
medical judgment, Dr. Eliason did not recommend sex
reassignment surgery. Id. 76-78, 176-79. At worst, Dr.
Eliason made a mistaken judgment; Estelle teaches
that this is not cruel and unusual punishment.
At the time of his 2016 evaluation, Dr. Eliason
concluded in his chart note that the medical necessity
for sex reassignment surgery was “not very well
defined and [was] constantly shifting[.]”9 Id. 77. He
noted that hormone therapy had resulted in an
improvement in Edmo’s gender dysphoria and that she
did not exhibit significant distress. Id. 76-77. He, joined
by other clinicians and mental health staff, felt Edmo
had other mental health conditions that were not well
controlled and which were not sufficiently stabilized to
handle the life-changing surgery. Id. 75, 78, 178. Given
that Edmo would soon be parole eligible, Dr. Eliason
strongly believed that it was in Edmo’s best interests to
wait until she had experience living as a woman
outside of prison before deciding to undergo surgery.
Id. 179; ER 827-28 (Tr. 431:3-432:11), ER 180 (Tr.
486:6-13). Dr. Eliason researched how other
organizations handled the issue and consulted with
multiple professionals with multiple backgrounds, who
universally agreed with his assessment. ER 821 (Tr.
425:2-5), ER 823 (Tr. 427:20-24); App. 77-78, 177. Dr.
Eliason’s medical judgment was also supported by
9

Sex reassignment surgery is so controversial and the medical
necessity and efficacy of the procedure so disputed that the Fifth
Circuit has held that the Eighth Amendment does not require the
performance of the procedure in any circumstance. Gibson, 920
F.3d at 223; see also Kosilek, 774 F.3d at 79 (noting “the treatment
of [gender dysphoria] [is] an evolving field, in which practitioners
could reasonably differ in their preferred treatment methods”).

28
expert testimony and studies. See, e.g., ER 221 (Tr.
527:5-7).
In short, Dr. Eliason arrived at an individualized
medical judgment that analyzed the risks inherent in
the potential treatments available and decided that the
conservative approach was most appropriate for
Edmo’s particular circumstances. He also took action to
investigate the risk of self-harm by Edmo and took
action to mitigate it. ER 818 (Tr. 422:21-24). Yet,
because the courts found Dr. Eliason deviated from the
controversial WPATH Standards, the Ninth Circuit
affirmed the finding that Dr. Eliason was deliberately
indifferent.
In so doing, the Ninth Circuit replicated the
mistake from the Estelle decision. As Judge Collins
recognized, the Ninth Circuit did just what Estelle
proscribed: “by narrowly defining the range of
‘medically acceptable’ options that the court believe[d]
a prison doctor may properly consider in a case such as
this one, and by then inferring deliberate indifference
from Dr. Eliason’s failure to agree with that narrow
range, the district court and the panel . . . applied
standards that look much more like negligence than
deliberate indifference.” App. 37-38 (citation omitted).
At bottom, the Ninth Circuit analyzed the
reasonableness of Dr. Eliason’s decision. This amounts
to a negligence standard and is foreclosed by this
Court’s decision in Estelle.
That the Ninth Circuit actually applied a negligence
standard is confirmed by the court’s repeated express
references to reasonableness. See, e.g., App. 120 (Dr.
Eliason did not “reasonably deviate from” the WPATH

29
Standards), 121 n.18 (the Ninth Circuit discounted the
agreement of Dr. Stoddart, Dr. Young, Clinician Clark
and the MTC with Dr. Eliason’s assessment with the
statement that “general agreement in a medically
unacceptable form of treatment does not somehow
make it reasonable” (emphasis added)), 129 n.19 ( “By
choosing to rely upon a medical opinion which a
reasonable person would likely determine to be inferior,
the prison officials took actions which may have
amounted to . . . the unnecessary and wanton infliction
of pain.” (Emphasis added) (internal quotation marks
omitted)).
The decisions of the First, Tenth, and Eleventh
Circuits discussed above illustrate how grievously the
Ninth Circuit deviated from this Court’s precedent.
These decisions adhered to Estelle by requiring more
than just negligence to find deliberate indifference. As
the First Circuit explained, “[t]he law is clear that
where two alternative courses of medical treatment
exist, and both alleviate negative effects within the
boundaries of modern medicine, it is not the place of
our court to ‘second guess medical judgments’ or to
require that the [Department of Correction] adopt the
more compassionate of two adequate options.” Kosilek,
774 F.3d at 90 (citations omitted); see also Keohane,
952 F.3d at 1277-78 (holding that arguably subpar
medical care provided to an inmate by prison providers
who did not have particularized experience or training
in treatment for gender dysphoria did not violate the
Eighth Amendment); Lamb, 899 F.3d at 1162 (finding
no deliberate indifference when the prison provider
exercised his medical judgment to determine a course
of treatment).

30
The Ninth Circuit’s disregard of this Court’s binding
precedent in Estelle warrants the requested grant of
certiorari.
B. The Ninth Circuit’s deliberate indifference
analysis conflicts with Farmer v. Brennan
by ignoring the subjective component of
deliberate indifference.
The Ninth Circuit’s decision also squarely conflicts
with the Court’s seminal decision in Farmer, as
multiple judges identified in the statement and
dissents from the denial of rehearing en banc. App. 2829, 48-50.
1. In Farmer, the Court clarified the subjective
component of deliberate indifference: a prison official
only acts with deliberate indifference when “the official
knows of and disregards an excessive risk to inmate
health or safety; the official must both be aware of facts
from which the inference could be drawn that a
substantial risk of serious harm exists, and he must
also draw the inference.” Farmer, 511 U.S. at 837
(emphasis added). The course of treatment must have
been criminally reckless or worse. Id. at 839-40.
Anything less, such as “an official’s failure to alleviate
a significant risk that he should have perceived but did
not, . . . cannot under our cases be condemned as the
infliction of punishment.” Id. at 838.
For this reason, deliberate indifference cannot solely
be “premised on obviousness or constructive notice.” Id.
at 841 (citation omitted). To support a finding of
deliberate indifference based on an obvious risk, there
must have been strong evidence suggestive of risk

31
available to the provider and the provider must have
deliberately refused to confirm it. Id. at 842-43 n.8. “It
is not enough merely to find that a reasonable person
would have known, or that the defendant should have
known[.]” Id.
This Court has affirmed that Farmer’s deliberate
indifference standard is still good law. See Ortiz v.
Jordan, 562 U.S. 180, 190 (2011) (restating Farmer’s
articulation of the deliberate indifference standard and
noting that Farmer’s deliberate indifference standard
was not in controversy).
2. The deliberate indifference analysis that the
Ninth Circuit employed plainly contradicts this binding
precedent. As Judge Bumatay, joined by six other
judges, identified, “the panel’s analysis effectively
erases the subjective deliberate indifference
requirement with its circular reasoning.” App. 50.
Neither the district court nor the panel examined
whether Dr. Eliason subjectively knew he was making
a medically unacceptable choice.10 The district court’s
sole conclusion related to Dr. Eliason’s subjective
deliberate indifference was that Dr. Eliason failed to
apply the WPATH criteria. Id. 195. Implicitly
acknowledging the insufficiency of this analysis, the
Ninth Circuit applied a different (also insufficient)
analysis that analyzed Dr. Eliason’s reasoning only in
the context of concluding that Dr. Eliason made a
subpar medical choice. See id. 117-22. The Ninth
Circuit did not conclude that Dr. Eliason was
10

There is not a single explicit finding in the district court’s
opinion as to Dr. Eliason’s state of mind. App. 195-97.

32
deliberately indifferent because he knew that the only
appropriate treatment for Edmo was sex reassignment
surgery, nor did it conclude that Dr. Eliason
deliberately avoided that knowledge. Id. 121-22. “Such
an approach is particularly troublesome because” it
infers deliberate indifference “solely from a finding of
a ‘medically unacceptable’ treatment.” Id. 51.
Second, the Ninth Circuit concluded its analysis by
finding that Dr. Eliason knew there was a risk of selfcastration and dysphoria inherent in the course of
treatment he had chosen. Id. 121-22. But as Judge
O’Scannlain correctly pointed out, the Ninth Circuit
fixated on just one risk when Dr. Eliason made a
considered treatment choice in a complex situation that
he believed “would mitigate overall risk.” Id. 30. As
discussed above, Dr. Eliason made an informed medical
decision to opt for a more conservative approach to
treating Edmo’s gender dysphoria in light of Edmo’s
particular circumstances. As to the risk of selfcastration, he considered this risk, he took steps to
avert further self-castration attempts, and he continues
to believe Edmo, as a whole person, would be best
served by undergoing surgery after her release.
Despite the Ninth Circuit’s fig-leaf citation to
Farmer, the standard the Ninth Circuit actually
applied was, at most, the very “should have known”
negligence standard that this Court explicitly rejected
in Farmer. Farmer, 511 U.S. at 843 n.8. As Judge
Bumatay warned, “the ultimate effect of the panel’s
analysis is to dilute the heightened, subjective
culpability required for deliberate indifference, into

33
mere negligence[.]” App. 51-52 (first citing Farmer, 511
U.S. at 839-40; then citing Estelle, 429 U.S. at 105-06).
Again, the decisions by other circuits that have
adhered to this Court’s precedent demonstrate how
badly the Ninth Circuit erred. As the First Circuit has
aptly stated, “a later court decision—ruling that the
prison [officials] were wrong in their estimation of the
treatment’s reasonableness—does not somehow convert
that choice into one exhibiting the sort of obstinacy and
disregard required to find deliberate indifference.”
Kosilek, 774 F.3d at 92 (citation omitted); see also
Druley, 601 Fed. App’x. at 635 (rejecting a gender
dysphoric inmate’s argument that her constitutional
rights would be violated if she was not treated with the
hormone levels suggested by WPATH because the
inmate presented no evidence that the defendants
“failed to consider the WPATH’s flexible guidelines,
failed to make an informed judgment as to the hormone
levels appropriate for her, or otherwise deliberately
ignored her serious medical needs”).
The Ninth Circuit’s disregard of this Court’s binding
precedent in Farmer separately warrants review.
C. The
Questions
Presented
involve
recurring issues of national importance.
This petition raises questions of vital importance to
prison systems, medical and mental health providers,
administrators, governments, and inmates nationwide.
Under the Ninth Circuit’s interpretation, the views
of advocacy organizations and judicial post-hoc
determinations of optimal treatment are enough to
establish an Eighth Amendment violation. This

34
amounts to a deeply troubling expansion of the Eighth
Amendment’s Cruel and Unusual Punishments clause.
“[T]he primary concern of the drafters [of the Eighth
Amendment] was to proscribe ‘torture(s)’ and other
‘barbar(ous)’ methods of punishment.” Estelle, 429 U.S.
at 102 (quoting Anthony F. Granucci, “Nor Cruel and
Unusual Punishment Inflicted:” The Original Meaning,
57 Cal. L. Rev. 839, 842 (1969)). While this Court has
recognized that the Amendment proscribes more than
just barbarous treatment, the Eighth Amendment still
does not prohibit mere negligence and medical
malpractice.
Yet, if the Ninth Circuit’s decision is allowed to
stand, inmates will be free to pursue state-law
negligence claims disguised as constitutional claims.
This will not just contravene the fundamental holdings
in Estelle and Farmer, but it will allow inmates an endrun around the state-law tort claim requirements that
govern every other litigant. Qualified medical
professionals will be deterred from working in prisons
by the constant threat of litigation.
Further, the Ninth Circuit’s analysis impermissibly
inserts the federal courts into the day-to-day treatment
decisions of prison medical and mental health
providers, who are already tasked with the very
challenging job of treating prisoners experiencing
complex and co-existing health conditions within the
prison environment. Despite this Court having stressed
that judicial inquiries into cruel and unusual
punishment claims “spring from constitutional
requirements and . . . judicial answers to them must
reflect that fact rather than a court’s idea of how best

35
to operate a detention facility,” the federal judiciary
now holds the role of prison medical committee in the
Ninth Circuit. Rhodes v. Chapman, 452 U.S. 337, 351
(1981) (quoting Bell, 441 U.S. at 539).
The Ninth Circuit’s flawed analysis will affect
prison medical care claims in all contexts. For example,
similar arguments are playing out across the nation in
the context of treatment for Hepatitis C in prisons,
where inmates are arguing that the guidelines set by
the American Association for the Study of Liver
Disease and Infectious Disease Society of America set
the constitutional requirements for the treatment of
their condition. See, e.g., Atkins v. Parker, 412 F. Supp.
3d 761, 782 (M.D. Tenn. 2019); Woodcock v. Correct
Care Solutions, LLC, No. 3:16-cv-00096-GFVT, 2020
WL 556391, at *5-6 (E.D. Ky. Feb. 4, 2020).
The Ninth Circuit’s decision threatens to have a
detrimental and destabilizing effect on the
administration of prisons in other ways. This Court, as
well as the First and Eleventh Circuits, have
acknowledged that the medical treatment provided to
inmates, particularly transgender inmates, impacts the
administration of prisons. See Farmer, 511 U.S. at 84849 (summarizing evidence that a prison’s refusal to
provide segregated housing to a pre-operative male-tofemale transsexual could pose significant safety
concerns); Kosilek, 774 F.3d at 93 (“[r]ecognizing that
reasonable concerns would arise regarding a postoperative, male-to-female transsexual being housed
with male prisoners takes no great stretch of the
imagination”); Keohane, 952 F.3d at 1275 (“an inmate
dressed and groomed as a female would inevitably

36
become a target for abuse in an all-male prison”). By
constitutionalizing a right to controversial medical
treatments with complex practical ramifications, the
Ninth Circuit has tied the hands of prison providers
and administrators.
Even if the import of this case were limited to the
treatment of gender dysphoria in prison (and it is not),
the issue of constitutionally appropriate treatment for
gender dysphoric inmates is arising with increasing
frequency across the country. The First Circuit
addressed this question in 2014 and, in just the last
two years, four more courts of appeals have faced this
question. The issue continues to reoccur. Subsequent to
the Ninth Circuit’s decision alone, the district courts
have seen a flurry of cases alleging deliberate
indifference related to gender dysphoria treatment,
including a putative class action.11

11

See, e.g., Clark v. LeBlanc, No. 3:19-00512-BAJ-RLB, 2019 WL
5085425, at *2 (M.D. La. Oct. 10, 2019); Monroe v. Baldwin, No.
18-CV-00156-NJR-MAB, 2019 WL 6918474, at *17 (S.D. Ill. Dec.
19, 2019), on recon. in part sub nom. Monroe v. Meeks, No. 18-cv00156-NJR, 2020 WL 1048770 (S.D. Ill. Mar. 4, 2020); Armstrong
v. Mid-Level Prac. John B. Connally Unit, No. SA-18-CV-00677XR, 2020 WL 230887, at *5 (W.D. Tex. Jan. 15, 2020); Avilez v.
Barr, No. 19-cv-08296-CRB, 2020 WL 570987, at *4 (N.D. Cal. Feb.
5, 2020); Porter v. Crow, No. 18-CV-0472-JED-FHM, 2020 WL
620284, at *9 (N.D. Okla. Feb. 10, 2020); Murillo v. Godfrey, No.
2:18-cv-02342-JGB-JC, 2020 WL 1139811, at *14 (C.D. Cal. Mar.
9, 2020); Jackson v. Kallas, No. 17-cv-350-bbc, 2020 WL 1139769,
at *2 (W.D. Wis. Mar. 9, 2020); Dana v. Tewalt, No. 1:18-cv-00298DCN, 2020 WL 1545786, at *9 (D. Idaho Apr. 1, 2020); Gonzales v.
Cal. Dep’t of Corrs. & Rehab., No. 1:19-cv-01467BAM (PC), 2020
WL 1847491, at *6 (E.D. Cal. Apr. 13, 2020).

37
A clear split in the circuits now exists, meaning that
the constitutional rights of a gender dysphoric inmate
include tax-payer funded sex reassignment surgery
when he is housed in Idaho, for example, but not when
that same inmate is housed in a state such as Texas.
Just as absurd, the constitutional rights of an inmate
housed within the Ninth Circuit’s domain encompass
treatment consistent with the WPATH Standards,
including sex reassignment surgery, but U.S. citizens
on Medicare are not guaranteed treatment consistent
with the WPATH Standards. See CMS, DECISION
M EMO FOR G ENDER D YSPHORIA AND G ENDER
REASSIGNMENT SURGERY (Aug. 30, 2016), https://go.cms.
gov/36yMrxX.
This case is an ideal vehicle for resolving the circuit
split and the issues discussed above. Unlike in many
prison litigation cases, the Plaintiff in this case has
been represented by counsel from nearly the start. The
district court allowed the parties to conduct several
months of discovery and held a multi-day hearing
before issuing its decision. Thus, the factual record is
more developed in this case than in many others, and
it is ripe for review. Compare App. 53-146, with Lamb,
899 F.3d at 1163 (noting the “sparseness of the
summary judgment record”) and Gibson, 920 F.3d at
221-23 (relying on the record created in the First
Circuit’s decision in Kosilek).

38
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Petitioner
Scott Eliason, M.D.

May 6, 2020

LAWRENCE G. WASDEN
Attorney General State of Idaho
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net
Counsel for Petitioners
the Idaho Department of Correction
and Henry Atencio, Jeff Zmuda,
and Al Ramirez, in their official
capacities

